                                      Office of Inspector General, USDA
                                         Investigation Developments

                                                     April 19, 2013

California Strawberry Farmer Sentenced and Ordered to Pay $223,000 in Restitution for False Disaster Claims

On February 19, 2013, in a California Federal court, a strawberry farmer who fraudulently obtained excess disaster
benefits for crop losses was sentenced to 1 year in Federal prison, and was ordered to pay restitution of $223,000
jointly and severally with his wife. He was also debarred from entering into contracts with the Farm Service
Agency (FSA). OIG agents revealed that he and his wife falsely claimed crop losses by a joint venture business to
receive $160,000 in Crop Disaster Program benefits for the 2004 crop year, while they were eligible to receive only
$80,000 legally. They also underreported production in order to receive $63,000 in Non-insured Crop Disaster
Assistance Program benefits. The farmer pled guilty to making a false statement to the Commodity Credit
Corporation. His wife was placed on pre-trial diversion in June 2012.

Illinois Store Owner Sentenced and Ordered to Pay $844,000 in Restitution for Trafficking Food Benefits

On February 22, 2013, in an Illinois Federal court, the owner of a convenience store in Waukegan, Illinois, was
sentenced to 30 months in prison, and was ordered to pay $844,000 in restitution for trafficking in Supplemental
Nutrition Assistance Program (SNAP) and Special Supplemental Nutrition Assistance for Women, Infants and
Children (WIC) benefits. OIG’s investigation disclosed that the owner and his wife exchanged SNAP benefits for
cash, purchased infant formula at half its retail price, and had excessive SNAP and WIC redemptions. In April
2011, approximately $14,700 was seized from the store’s bank account, and approximately $377,000 in cash and
$16,000 in WIC vouchers were seized from the couple’s home. Both the husband and wife pled guilty in August
2012 to one count of conspiracy regarding SNAP and WIC benefits. The wife’s sentencing is pending.

Mississippi County Administrator is Sentenced and Ordered to Pay $73,000 for Theft and Bribery in Connection
with Fraudulent Loan Activity

On February 28, 2013, in a Mississippi Federal court, a county administrator who participated in fraudulent activity
involving a hospital purchase financed with a $27.3 million Rural Housing Service (RHS) guaranteed loan was
sentenced to 14 months in prison, and was ordered to pay $33,000 in restitution and a $40,000 fine. OIG
determined that he assisted a physicians’ group in obtaining the hospital, which involved a fraudulent payment of
$250,000 needed to qualify for the guaranteed loan. Other criminal violations in the case included bribery, health
care fraud, and embezzlement.1

Texas Store Owner Sentenced and Ordered to Pay $1.4 Million in Restitution for SNAP Trafficking

On January 25, 2013, in Federal court in Texas, the owner of a small convenience store in Arlington, Texas, was
sentenced to 57 months in prison and ordered to pay $1.4 million in restitution for trafficking in SNAP benefits.
OIG’s investigation revealed that the store exchanged SNAP benefits for cash and, in one year, redeemed almost
$1 million, despite reporting total store sales of only $200,000. OIG agents also found that the store owner moved
approximately $1 million in cash through a bank account on a monthly basis. The store owner pled guilty to counts
of SNAP trafficking, wire fraud, and operating an illegal money transmitting business.

New York Store Owner Sentenced and Ordered to Pay $100,000 in Restitution for SNAP Fraud

On February 14, 2013, in New York Federal court, the owner of a small store in Brooklyn was sentenced to
6 months in prison, and was ordered to pay $100,000 in restitution for trafficking in SNAP benefits. OIG initiated

1
 Two other individuals in this case have been sentenced. A physician was sentenced to 2 years of home confinement and
$400,000 in restitution. Two businessmen involved in the scheme were found guilty of multiple offenses, including
embezzlement, kickbacks, and lying to investigators. One was sentenced to 55 months in prison and fined $10,000.
Sentencing is pending for the second businessman.
                                                                                                                            2

its investigation due to information that the owner, who had been permanently disqualified from participating in
SNAP for prior violations, had transferred ownership of the store to a straw owner. He retained control of the store
and was exchanging SNAP benefits for cash, and was suspected of selling weapons at the store. OIG’s
investigation showed that during November 2009-January 2012, he and store employees trafficked in SNAP
benefits. The owner pled guilty to conspiracy to commit SNAP trafficking. One of the employees entered into pre-
trial diversion and was ordered to pay restitution of $2,000. Additional judicial action is pending in this
investigation.

Benefit Recipient in Philadelphia Sentenced, Ordered to Pay $208,000 in Restitution for Conversion of Funds

On February 26, 2013, in Federal court in Pennsylvania, a Philadelphia woman who falsified information to receive
several kinds of Federal assistance was sentenced to 90 days in prison, 3 years of supervised release, and was
ordered to pay $208,000 in restitution. OIG agents revealed that she participated in a scheme to defraud the Social
Security Administration (SSA), the Department of Housing and Urban Development (HUD), and USDA by
concealing and failing to report her marriage, her husband’s income, and her own employment income. She
thereby received unauthorized benefits from January 1999 through November 2008, resulting in a loss to the
Government of approximately $208,000. This was a joint investigation conducted with the SSA and HUD OIGs.

Ongoing Tobacco Fraud Investigation in North Carolina Results in the Sentencing of Three Conspirators, with
Restitution Orders of $21 Million and $8.4 Million

To date, OIG’s investigations into extensive fraud and abuse committed by parties involved in crop insurance
program schemes in North Carolina have resulted in 40 individuals pleading guilty. Two new results were
achieved in February 2013. The first recent development occurred on February 13, 2013. A farmer and crop
insurance agent participating in the conspiracy were sentenced to 6 months’ home confinement and 9 years in
prison. The insurance agent was also ordered to pay $7.4 million in restitution to RMA and $1 million in restitution
to private insurance companies. OIG determined that the crop insurance agent failed to disclose certain financial
dealings with clients on conflict of interest disclosure reports, and aided clients in hiding tobacco production and
filing false insurance claims. During September 2005-September 2011, the agent’s actions caused $7.4 million in
Federal crop insurance indemnity payments and $1 million of crop hail indemnity payments to be paid to his
insured clients. The farmer sold tobacco to the agent but did not disclose the tobacco in production reports in
connection with his indemnity claims.

The second recent development occurred on February 20, 2013. A former crop insurance adjustor involved in the
broad conspiracy was sentenced to 4 years’ imprisonment and ordered to pay $21 million in restitution.2 OIG
agents disclosed that farmers, warehouse operators, crop insurance agents, adjustors, and check cashers assisted in
filing and concealing the false claims and cashing “nominee” checks. The adjustor also threatened to do bodily
harm to a witness and his wife because the witness provided information to investigators. The adjustor pled guilty
to charges regarding false statements, mail and wire fraud, and retaliating against a witness.

North Dakota Farmer Sentenced and Ordered to Pay $45,000 in Restitution for Conversion of Mortgaged Property

On February 25, 2013, in Federal court in North Dakota, a farmer who sold mortgaged grain without authorization
was sentenced to 2 years of probation on each of two counts, to run concurrently with 6 months’ home
confinement. He was also ordered to pay $45,000 in restitution. OIG’s investigation determined that the farmer
converted over 2,200 bushels of mortgaged grain, valued at approximately $19,000, which had been pledged to
FSA. He falsified his FSA security agreement by certifying 22 head of cattle which he did not possess. He pled
guilty to two counts of conversion of mortgaged property.




2
    Of this restitution amount, $6.7 million is joint and several with three co-defendants who were previously sentenced.
